<html>
<title> - REASSESSING AMERICAN GRAND STRATEGY IN SOUTH ASIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
           REASSESSING AMERICAN GRAND STRATEGY IN SOUTH ASIA

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2011

                               __________

                           Serial No. 112-54

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
67-601                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7a0b7a887a4b2b4b3afa2abb7e9a4a8aae9">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Aparna Pande, Ph.D., resident fellow, Hudson Institute...........     6
Mr. John Tkacik, Jr., president, China Business Intelligence 
  (former Chief of China Analysis in the Bureau of Intelligence 
  and Research, U.S. Department of State)........................    15
Mr. Sadanand Dhume, research fellow, American Enterprise 
  Institute......................................................    29
Mr. Shuja Nawaz, director of the South Asia Center, The Atlantic 
  Council of the United States...................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on 
  Oversight and Investigations: Prepared statement...............     3
Aparna Pande, Ph.D.: Prepared statement..........................     9
Mr. John Tkacik, Jr.: Prepared statement.........................    17
Mr. Sadanand Dhume: Prepared statement...........................    31
Mr. Shuja Nawaz: Prepared statement..............................    39

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63


           REASSESSING AMERICAN GRAND STRATEGY IN SOUTH ASIA

                              ----------                              


                         TUESDAY, JULY 26, 2011

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. On the record. I'm not going to repeat 
what I just said. So anyway, I want to welcome all of you, 
welcome our witnesses and thank our witnesses for joining us 
today.
    U.S. policy in Southwest Asia needs to be changed and 
changed quickly because we are currently funding people who are 
directly responsible for killing Americans. The purpose of 
today's hearing is to explore how we get out of this particular 
mess.
    The main powers in Southwest Asia are Democratic India, 
Bankrupt Pakistan and Communist China. The latter is not 
located in the region but is always there stirring the pot due 
to its alliance perhaps with Pakistan and its rivalry, mutual 
rivalry, with India.
    Afghanistan, which has been the focus of U.S. involvement, 
is part of a larger regional contest. This is a truism that has 
failed to be apparent to many Americans over the years. The 
India-Soviet alignment alienated the United States during the 
Cold War, resulting in what was clearly an adversarial 
relationship between the United States and India.
    China's occupation of Tibet and invasion of the Himalayan 
India certainly escalated tensions in that part of the world, 
and when the Soviets invaded Afghanistan in 1979, the U.S. and 
Pakistan worked together to support Afghan insurgents against 
the Soviet occupation.
    Following the Russian withdrawal in 1989 the U.S. shifted 
its focus away from Southwest Asia. The Pakistan-China 
friendship, however, as we begin to focus away, deepened and 
became more intense as both parties targeted India as their 
major enemy. China now is a natural ally of Pakistan which, of 
course, has manifested a gut hostility toward India since the 
founding of that country. That is the power dynamic that is at 
work in Southwest Asia.
    China arms Sri Lanka, Burma, Bangladesh and pours money 
into these states to influence their alignment. Nepal on 
India's northeast border has recently been taken over by a 
malice movement which has ties to Beijing.
    All of this is a dangerous rivalry, one that the United 
States was unfortunately drawn into when devising a Cold War 
strategy, but that strategy must be dramatically and 
immediately changed because the times have changed. The Cold 
War is over and we have been on a pathway that was directed by 
those policies established during the Cold War for far too 
long.
    With U.S. support, Pakistan has played a major role in 
creating the Taliban. Islamabad independent of U.S. interest 
hoped to use this radical element of the Taliban as a vanguard, 
its own vanguard, to gain control of Afghanistan and to 
strengthen their position against India.
    After 9/11 the United States used both carrots and sticks 
in an attempt to focus Pakistan to break with these terrorists. 
In the latter category, the carrots and sticks, basically we 
moved to improve relations with India as we saw Pakistan 
conducting themselves in a way that was totally unacceptable to 
our interests. So we moved to improve our relations with India 
and also, for example, sought a role for India in Afghanistan's 
reconstruction. Ties were further advanced with the 
ratification of the United States-India Agreement for 
Cooperation on the Peaceful Uses of Nuclear Energy in 2008 
which China, of course, denounced.
    The Mumbai attack on 2010 which was linked to a Pakistan-
based terrorist group with links to the ISI--that's the Inter-
Services Intelligence system there in Pakistan--reminded both 
India and the United States that they had a common enemy. So 
did the continued and close military cooperation between 
Pakistan and China remind us that perhaps Pakistan was slipping 
away from being a friend into being an adversary.
    Pakistan has acquired Chinese fighters, frigates, 
submarines, armored vehicles. Pakistan's nuclear weapons and 
ballistic missiles are based on Chinese technology which was 
provided by Beijing as an explicit act of proliferation. China 
is building more nuclear reactors in Pakistan along with 
military air fields, ports and other strategic infrastructure.
    As far as relations with Pakistan, they have been getting 
worse rather than getting better, and in the wake of the 
discovery that Osama bin Laden had been living in a Pakistani 
garrison town for 5 years, the Obama administration has 
rightfully withheld $800 million in aid to Islamabad.
    Chairman of the Joint Chiefs of Staff Admiral Mike Mullen 
has confirmed, and it is well-known, that the ISI has a 
longstanding relationship with a number of terrorist groups, 
and it is funding and training these terrorists who are at this 
moment killing Americans and coalition partners in Afghanistan.
    Pakistani officials have called on the Afghan Government to 
expel U.S. forces and to join a Pakistani-Chinese alliance. So, 
friends, our Pakistani friends are there asking the Afghans 
just to drop us and join the Chinese and Pakistanis.
    I have proposed legislation H.R. 1792 to end all aid to 
Pakistan, and have also offered amendments to both the Defense 
and State Department authorization bills to do so, but what 
needs to be seriously discussed is a fundamental shift in 
America's Southwest Asia strategy, a break with the Cold War 
policies that no longer apply.
    What is the best way for the United States to protect its 
security, its interests, and its values in Southwest Asia? 
Well, these are questions that we hope to answer today, and 
that's what this hearing is about.
    I will be introducing the witnesses for their testimony in 
a moment. But, first, open remarks from Ranking Member 
Carnahan.
    [The prepared statement of Mr. Rohrabacher follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Carnahan. Thank you, Mr. Chairman, for organizing this 
hearing on this key topic, particularly at this time. And thank 
you for our panel of witnesses for being here to lend us your 
expertise and your knowledge on this issue.
    Obviously, relations between the U.S. and Pakistan are 
clearly strained right now. Many folks in this county still 
find it hard to believe that top government officials or 
military leaders in Pakistan were not being straightforward 
during the time we were trying to find Osama bin Laden.
    We've seen the latest sign of tension was the 
administration's decision to suspend nearly $800 million in 
counterterrorism funding to Pakistan. And the chairman has 
rightly stated that that was the correct action of the 
administration.
    Given the mounting concerns over a series of decisions made 
by the Pakistani Government and the military, suspension of a 
portion of the U.S. military aid was the right thing to do.
    We need to ensure that every dollar of the U.S. taxpayer 
funded assistance is being used properly. This vigorous 
oversight role for all of U.S. foreign aid is critical to the 
success of our programs there. It's a key component to building 
infrastructure and capacity in Pakistan.
    Officials throughout the country have to do better from 
rooting out corruption to vigilantly pursuing terrorists. The 
government and military absolutely have to step up and do a 
better job.
    Pakistan faces enormous economic, security, development and 
political challenges. And I believe that it's critical that the 
U.S. and the international communities stay engaged and our 
people stay engaged in Pakistan. As we look toward the post 
2014 draw-down of U.S. troops in Afghan, we need to ensure that 
we are making decisions that move Pakistan, Afghanistan and the 
region toward more stability and not less.
    Diplomacy and development are key. They're going to 
continue to be key compounds of our policy in the region 
especially after 2014. I'm very interested to hear what our 
witnesses have to say as to the best way forward and how our 
strategy in Pakistan and the region should unfold in the months 
and years ahead.
    Thank you for being here today to testify. And I want to 
give a little bit of a disclaimer here. I have a second hearing 
going on right around the corner. I may have to step out 
briefly. But I'm going to do my best to juggle both hearings 
today. So again thank you.
    Mr. Rohrabacher. Thank you very much. We will now proceed 
with our witnesses, the first of which is--and you all will 
forgive me--my better talent is something to do with surfing in 
California. My worst talent has something to do with 
pronouncing names, and please forgive me if I--and you might 
correct me to the right way. Shuja Nawaz. Is that the right 
pronunciation?
    Mr. Nawaz. Shuja Nawaz.
    Mr. Rohrabacher. All right. Then he's a native of Pakistan, 
now a U.S. citizen. First director of South Asia Center at the 
Atlantic Council in Washington. He has worked for Rand 
Corporation and U.S. Institute of Peace and the Center for 
Strategic and International Studies, and we also have with us 
over at this side--please tell me how to pronounce your first 
name.
    Mr. Pande. Aparna.
    Mr. Rohrabacher. Aparna. Okay. Aparna Pande, a research 
fellow with the Hudson Institute Center on Islam, Democracy, 
and the Future of the muslim World. A 1993 graduate of Delhi 
University. You hold a master's degree in history from St. 
Stephen's College, Delhi University and then a master's in 
international relations as well, and you've received a 
doctorate in political science from Boston University, and you 
have a book explaining Pakistan's foreign policy. Boy, we'll be 
interested to hear that, and escaping India I might add. It was 
published in March 2011 by Routledge, and then John Tkacik.
    Mr. Tkacik. That's correct.
    Mr. Rohrabacher. All right. Retired Foreign Service 
officer, businessman, policy commentator with over 35 years 
experience in China, Taiwan and Mongolia, he spent 24 years in 
the Department of State and in diplomatic and counselor offices 
in Taiwan and China, and was the Chief of China Analysts in the 
Bureau of Intelligence and Research before he retired in 1994.
    He joined the Heritage Foundation in 2001 where he was a 
senior fellow in Asian studies. He has edited two books, 
Reshaping the Taiwan Strait and Rethinking One China. He is 
fluent in Chinese and has degrees from Harvard and Georgetown 
Universities. He's currently president of the China Business 
Intelligence, and then Sadanand Dhume, got it, is a resident 
fellow at the American Enterprise Institute. He is also a South 
Asian columnist for the Wall Street Journal. He has worked as a 
foreign correspondent for the Far Eastern Economic Review and 
my friend, Bertil Lintner. Is he still there?
    Mr. Dhume. Bertil's still there, but the magazine isn't 
though.
    Mr. Rohrabacher. But the magazine isn't. Bertil is there, 
but the magazine folded. Okay, and was a fellow at the Asian 
Society here in Washington, DC. He has a political travelogue 
about the rise of radical Islam in Indonesia, My Friend, The 
Fanatic, travels with a radical Islamist, has been published in 
four countries, has a B.A. from Delhi University and a master's 
degree from Columbia and Princeton, and we should go from right 
to left. Which right? This right. Okay. From her, she'd be on 
the lefthand side.
    Why don't we start with you. If you could try to condense 
it down to 5 minutes that would be helpful and then we'll go to 
questions and answers after that. So you may proceed.

   STATEMENT OF APARNA PANDE, PH.D., RESIDENT FELLOW, HUDSON 
                           INSTITUTE

    Mr. Pande. Good afternoon, I would like to start by 
thanking the chairman and the committee for having me here 
today.
    Any attempt at a certain American grand strategy will face 
some difficulty in South Asia. This is because it will be 
difficult to place either India or Pakistan into set categories 
or strategies. During the Cold War, Pakistan was more 
interested in being part of a grand strategy, but India adopted 
the policy of nonalignment.
    Today, while India may appear more interested in partnering 
with the United States, Pakistan will resist being part of any 
grand strategy. Therefore, instead of a grand strategy, it 
might be better if they were country and region specific 
strategies.
    The U.S.-Pakistan relationship has been one of differing 
expectations and that is often why both sides feel let down. 
Pakistan's leaders have always feared an existential threat 
from India and believe that the aim of India's foreign policy 
is to undo the creation of Pakistan. Pakistan has always seen 
the United States as the ally who would provide assistance to 
help Pakistan gain parity with India and ensure its safety and 
integrity against any Indian attack. In return for supporting 
some American policies, Pakistan has sought U.S. aid and 
support against India especially in the context of Kashmir and 
Afghanistan.
    For the United States, however, Pakistan was just one part 
of its larger containment strategy during the Cold War era. 
Post 9/11 Pakistan was invaluable for the war in Afghanistan 
and against terrorism. For the United States, the relationship 
has been tactical and transactional, not strategic and long 
term. Further while desirous of peace in South Asia, the U.S. 
has never seen India as an enemy or threat.
    Pakistan seeks in China a strong ally who would build 
Pakistan's economic and military resources, to help achieve 
parity with India and a country that has an antagonistic 
relationship with India and hence would support Pakistan in any 
conflict with India. While China has been a close Pakistani 
ally since the 1950s, Chinese assistance has been limited to 
the military-nuclear area, in facilitative development and 
trade related investment. The investment has been targeted in 
such a way as would benefit China in the long run. For decades, 
Indian policymakers viewed American policy as that of an 
offshore balancer to counter so-called Indian hegemony in South 
Asia.
    Starting with the Bush administration, there was a change 
in policy beginning with a desire to treat India and Pakistan 
differently. Economic, security and defense ties have grown in 
the last decade.
    Over the years, the U.S. has provided vast amounts of aid 
to Pakistan. However, most of this aid has been military in 
nature. It is only in 2009 that with the Kerry-Lugar-Berman Act 
a significant amount of nonmilitary aid was offered to 
Pakistan.
    If the United States withdraws all its assistance, 
especially nonmilitary aid, and walks away from Pakistan, there 
will be further destabilization of the country and the region. 
This move will negatively affect American operations in 
Afghanistan.
    Without an American presence or assistance, Pakistan will 
be even less reluctant to act against terror groups operating 
from its territory. This means that if any future attacks in 
India are traced back to Pakistan, then without an American 
stake in the region, it will be difficult to dissuade either 
country from taking military action.
    The threat of nuclear proliferation to terrorists is 
another issue that directly threatens U.S. foreign and domestic 
interests. Further, Pakistan's economy is weak and has yet to 
recover from the devastating floods of 2010 and the massive 
refugee crisis. Pakistan's depends on outside support both from 
U.S. and multi-lateral institutions like IMF, World Bank and 
others.
    Pakistan's foreign and security policies have traditionally 
been and continue to remain the domain of the military 
bureaucratic establishment. Civilian politicians have rarely 
had any say and have been unwilling or unable to change the 
direction of these policies.
    While the Pakistani security establishment's world view 
does not match that of the American, boosting the civilian side 
of the Pakistani state which shares the American world view is 
critical. In the long run, U.S. policy would benefit by weaning 
Pakistan away from its fundamental orientation and ideological 
driven identity and world view by helping the civilian, secular 
and liberal elements in the country. In this context non-
military aid that furthers the growth of a modern middle class 
and civil society is well worth the investment. Non-military 
aid less thinly spread that is targeted to impact the lives of 
large numbers of people is also going to have a higher payoff.
    Moving ahead, the relationship with Pakistan is going to be 
difficult. But it will be beneficial to both parties concerned 
if one tried to find areas of agreement. Thank you.
    [The prepared statement of Dr. Pande follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much, and we will have some 
questions for you later on.
    John, would you like to proceed?

 STATEMENT OF MR. JOHN TKACIK, JR., PRESIDENT, CHINA BUSINESS 
 INTELLIGENCE (FORMER CHIEF OF CHINA ANALYSIS IN THE BUREAU OF 
      INTELLIGENCE AND RESEARCH, U.S. DEPARTMENT OF STATE)

    Mr. Tkacik. Thank you, Chairman Rohrabacher and members of 
the committee. I am honored to be here to testify before you on 
what may be the most important dimension of America's grand 
strategy in South Asia which is the strategic relationship 
between China and Pakistan.
    I've entitled my presentation ``The Enemy of Hegemony is My 
Friend'' because China views the United States as the hegemon 
in the world and Pakistan views India as the hegemon in South 
Asia.
    At the outset let me say that in the 21st century there can 
be no more profound a strategic alliance than one in which the 
members exchange nuclear weapons, materials, technology and 
delivery systems between themselves and aid each other in their 
development.
    This is the kind of relationship that China and Pakistan 
have. In fact, the United States only has one such relationship 
and that's the so-called special relationship with the United 
Kingdom. China and Pakistan's relationship although it appears 
that China's far more tolerant and abetting of Pakistan's 
further proliferation of nuclear weapons and delivery systems 
to third parties such as North Korea and Libya. These are only 
two examples of the peculiar strategic relationship that China 
and Pakistan have.
    Recently there has been considerable speculation in the 
news that somehow China recently has come to eclipse the United 
States as Pakistan's most important ally. But this is 
unfounded. It's unrealistic. It betrays an misunderstanding of 
Pakistan's strategic relationship with China.
    China has always been Pakistan's most important strategic 
ally. And the intensity of Pakistan's relationship with the 
United States has always been a subfunction of Pakistan's all-
consuming strategic calculus about India.
    The relationship between China and Pakistan goes back, of 
course, to the 1962 war between China and India which was 
rooted in China's occupation of the Aksai Chin portion of the 
India-claimed portion of Kashmir 6 years earlier.
    Mr. Chairman, as you're aware, the United States cooperated 
with India in the 50s and 60s to support a large Tibetan exile 
nation based in India. China came to regard Pakistan as a 
strategic ally to India's geographical rear and Pakistan for 
its part had likewise come to see China as a counterweight to 
India.
    In the 1965 First Indo-Pakistani War after Pakistan was 
soundly defeated, China immediately provided Pakistan with a 
considerable amount of war materiel including at least an 
armored division's worth of T-59 medium tanks and two air wings 
of MiG-19 jet fighters. This was weaponry that China at the 
time was not in a position to give away. But China could not 
tolerate strategically India's preeminence in the subcontinent 
if China were to consolidate its legitimacy in its occupation 
of Tibet.
    From that time on, China-Pakistan alliance has been the 
single most important military relationship that either of the 
two nations has had since the 1950s. I won't go through the 
history of it, but I will say, before my time is up, that 
China's complicity in providing Pakistan with nuclear weapons 
technology, nuclear weapons materials, including fissile 
materials, China's provision to Pakistan of ballistic missile 
technology and when the United States put pressure on China to 
stop, China managed a very subtle but quite apparent trade 
between North Korea and Pakistan.
    North Korea gave Pakistan ballistic missile technology in 
return for which Pakistan gave North Korea uranium separation 
technology and weapons technology. This was all revealed by 
former Prime Minister Benazir Bhutto to a friend of hers before 
she passed away. And the Washington Post had two articles on it 
that I thought were quite revealing. We can discuss it if you 
wish when the time comes.
    Let me move right to my conclusion. For the United States 
to achieve a true strategic partnership with Pakistan, the 
United States must then share Pakistan's posture toward India. 
It follows that subduing India also demands acquiescing in 
China's ultimate hegemony in Asia.
    In reassessing America's grand strategy in South Asia, the 
United States must first reassess its total global grand 
strategy. If the United States can live with an Asia under 
Chinese hegemony and with a crippled India, then America can 
have Pakistan's enthusiastic partnership against the Taliban or 
whomever else it wants.
    But decisions like this are, as they say, above my pay 
grade. Instead they are the proper focus of the Congress and 
the Executive. I would only say that both the Congress and the 
Executive should look at South Asia's strategy in the context 
of its broader global strategy. And I'll leave the rest of my 
presentation to the questions. Thank you very much.
    [The prepared statemeent of Mr. Tkacik follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Dhume.

  STATEMENT OF MR. SADANAND DHUME, RESEARCH FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Dhume. Thank you. Mr. Chairman Rohrabacher and Mr. 
Ranking Member Carnahan and all of the committee members. It's 
an honor to be here.
    I would argue that there is in fact--we do have the 
contours of U.S. grant strategy in South Asia and I would say 
that pillars of that sort of to understand what U.S. policy 
should be in the region we could actually look back at another 
part of Asia where U.S. policy was very successful which is 
Southeast Asia from I'd say between 1966 until about the late 
90s. And just as the U.S. in Southeast Asia was instrumental in 
prevailing over Indonesia and Malaysia, for example, to end 
their squabbles and presiding over three decades of outstanding 
economic growth, rising prosperity, opening market economies 
and so on, I think that ought to be--that provides a kind of 
template for what should be U.S. grant strategy in South Asia 
where the U.S. has been arguably much less successful.
    So I'd say that this grant strategy has four pillars as I 
see it. The first, of course, is to take a leaf out of 
successful U.S. strategy in Southeast Asia to preside over a 
period of peace and prosperity.
    The second key factor here is that India is naturally the 
fulcrum of U.S. policy in South Asia quite simply because of 
its size, because of its economy, because of the fact that its 
economy is increasingly open and it has private sector 
companies that are driving it, because of very close people to 
people ties between the U.S. and India, particularly the large 
Indian American community from whom you have two members over 
here. For all these reasons, democratic India as you said is a 
natural American partner in the region which acts against both 
the hegemony of authoritarian China and also acts as a kind of 
firebreak against a rise of radical Islam as an ideology 
unfortunately much of which is emanating from Pakistan.
    The third leg of this grant strategy apart from taking a 
leaf from Southeast Asia and using India as a fulcrum would be 
making sure that Pakistan stops spreading terrorism both in its 
neighborhood and beyond and making sure that Pakistan nuclear 
weapons do not fall in the hands of any terrorist group.
    And finally, the fourth leg would be greater economic 
integration.
    Now when I look at these sort of pillars the one that seems 
most problematic which you alluded to also, Mr. Chairman, is 
Pakistan and the current state of that state. I'd say if you 
were to sum up what the U.S. needs to achieve in Pakistan very 
simply it is to change the nature of the Pakistani state. And 
by this I mean it has to go from being a state where the Army 
and the Army's intelligence agency, the ISI, play a 
disproportionate role that destabilizes its neighbors, both 
Afghanistan and India, to one where Pakistan's legitimate 
security interests are respected such as its borders. But its 
capacity to destabilize its neighbors and effectively keep 
India hobbled which plays into Chinese ambition is restricted. 
And that has to be the central goal of U.S. policy in South 
Asia. For the foreseeable future, it has to be changing the 
course of Pakistan.
    Now you spoke of carrots and sticks and I agree 
wholeheartedly that American carrots have not entirely been 
successful, $20 billion of aid, and you still find Osama bin 
Laden in Abbottabad, Pakistan, a garrison town. So I agree that 
the method has not been entirely successful.
    But I would add that instead of taking away all the carrots 
which would be shortsighted, we need a combination of targeted 
carrots and bigger sticks. You can't take the sticks off the 
table. But you can't take the carrots away either because the 
alternative which would be a Pakistan that is disengaged from 
the U.S. would hurt their elements in Pakistani society. And 
they do exist. Liberal secular elements in Pakistani society 
who want their country to focus on development and the 
betterment of its citizens. And those people need to have the 
support of the United States even while the Army is turned into 
something that we would recognize as resembling a more 
``normal'' military, one that is concerned with guarding its 
own borders and less with destabilizing its neighbors. Thank 
you.
    [The prepared statement of Mr. Dhume follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much. Exactly 5 minutes. 
Very impressive.
    Mr. Nawaz.

   STATEMENT OF MR. SHUJA NAWAZ, DIRECTOR OF THE SOUTH ASIA 
       CENTER, THE ATLANTIC COUNCIL OF THE UNITED STATES

    Mr. Nawaz. Mr. Chairman, Ranking Member Carnahan, members 
of the committee, I'm honored to be invited to speak to you 
today. With due respect, Mr. Chairman, I cannot see any signs 
of a ``grand strategy'' of the United States in South Asia. In 
my view, we've been improvising all along and now as we 
approach the end of military operations in Afghanistan, we seem 
to be trying to do too much in too short a time.
    I'm reminded of Lewis Carroll's sentence in Alice's 
Adventures in Wonderland: ``When you don't know where you are 
going, any road will take you there.'' It is sad and 
regrettable that today after expending billions of dollars in 
the region and losing thousands of American lives and many 
multiples in Afghan and Pakistani lives in the ensuing 
conflicts we are still grasping for a ``grand strategy.'' Our 
local alliances have been marked by expediency. It is time to 
change that situation.
    In my detailed testimony I've examined the genesis of the 
U.S.-Pakistan relationship in the past decade or so and 
identified the causes of our current problems in the region. In 
the interest of time, let me identify now some practicable 
suggestions as we move ahead.
    First, the United States must stop seeing everything 
through the military lens alone and stop aligning with corrupt 
leaders who will use aid to line their own pockets at the 
expense of their citizens and who dissemble with us and lie to 
their own people even after agreeing to certain courses of 
action with the United States.
    The United States must put its interactions with civilian 
leaders and civil society on a much higher plane than it has to 
date. And it must increase its effort to help Pakistan rebuild 
its civil society and institutions so they can reclaim the 
space that's been taken away by long military rule.
    Despite the occasional contretemps, the Pakistan military 
still values its ties to the United States. But this 
relationship must be based on respect and a very frank 
assessment of needs on both sides. Stopping the Coalition 
Support Funds will be a good start. Replacing it with an agreed 
military aid program with clearly identified and defined 
objectives and expectations will change this from a 
transactional relationship to a consistent and a sustainable 
one.
    The military IMET program, the International Military 
Education and Training Program, must be deepened to extend to 
attachments with U.S. forces of the ``lost generation'' of 
junior Pakistani officers who were cut off from the world at 
the time that Pakistan was under sanctions.
    The United States' private negotiations with Pakistani 
interlocutors have to be frank and tough but rest on honesty 
and mutual respect. Influencing local leaders via leaks and 
public statements via the news media produces an unintended 
consequence: Support for an ever present and widening net of 
conspiracy theories.
    The Kerry-Lugar-Berman bill is a strong signal of a change 
in the U.S. view of this relationship. But it needs to be 
refocused on economic development and longer-term sustainable 
signature projects along the lines of development financing 
from the United Kingdom. We must build civil institutions 
through a civilian equivalent of The IMET program.
    Economics lies at the heart of potential interdependence 
within the region, as one of my colleagues here has said. The 
United States can and should encourage opening of borders to 
trade people. The trade dividends for India and Pakistan alone 
could rise from a current level of $2 billion a year to $100 
billion a year: Much more than any potential U.S. aid to the 
region.
    Seven out of ten persons polled in India and Pakistan want 
to have better relations with the other country. The United 
States can and must leverage this latent goodwill as suggested 
recently by Secretary Clinton in her speech at Chennai. Once 
the people can move across borders freely, the ability of 
interested parties to foment conflict will be reduced 
considerably.
    As we prepare to exit Afghanistan, both India and Pakistan 
could be persuaded to work together to ensure that Afghan 
territory will not become a battleground for their narrow 
interests. A radical Taliban regime in Kabul would allow the 
Pakistani Taliban to use sanctuaries to attack the Pakistani 
state from across the Afghan border. Let us try and build on 
that common understanding of The Taliban threat.
    Finally, we should also consider widening the aperture to 
see how we can engage China and even Iran to use their 
respective influence and economic ties with Afghanistan and 
Pakistan to create stability. China has a huge economic stake 
in the stability of the region and also fears radical 
extremists contaminating its own border region.
    Mr. Chairman, I'm grateful that this committee is focusing 
on this issue and thank you for allowing me to share some of my 
views with you.
    The prepared statement of Mr. Nawaz follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much to our witnesses, and 
what we will do is I'll start off with a few questions. We'll 
go to our other members of the committee and then the ranking 
member will be rushing back from his hearing right across the 
hall and we appreciate his diligence in doing just that.
    Now I'm trying to--Did you say that China and Pakistan have 
always been--Or was that you? Okay. So you believe that China 
and Pakistan have always been best friends.
    Mr. Tkacik. Well, I think since the 1962 Indo-Pakistani, I 
mean, Sino-Indian War.
    Mr. Rohrabacher. Okay. Sixty-six.
    Mr. Tkacik. 1962.
    Mr. Rohrabacher. 62, okay.
    Mr. Tkacik. China has viewed India as an enemy as an 
adversary.
    Mr. Rohrabacher. Right.
    Mr. Tkacik. In the 1950s, India and China were sort of on 
the same ideological sheet of music. They were both supported 
by the Soviet Union. They both considered themselves 
socialistic states. But in 1957 when China began to build roads 
through The Aksai Chin Territory of Kashmir, which is I'm not 
even sure if the Chinese even knew they were in Kashmir at that 
time, India began to get a little bit upset. And by 1962 when 
the Sino-Soviet ideological split burst open, India decided to 
side with the Soviet Union. And that was sort of when the----
    Mr. Rohrabacher. Right. So you're suggesting that the 
Chinese-Pakistani relationship is longstanding and not 
something new.
    Mr. Tkacik. Yes. At least a half century.
    Mr. Rohrabacher. I guess what Americans don't understand is 
that we've had military bases in Pakistan. Did we not have an 
Air Force base up there? And we have been--And I think you also 
testified that or one of you testified that the Indian Army or, 
excuse me, the Pakistani Army had been equipped by China with 
all their tanks and such, but we were providing Pakistan with 
arms at that same time.
    Mr. Tkacik. I believe.
    Mr. Rohrabacher. Now if my memory serves me correctly, 
Nixon didn't turn around our relationship with China until the 
early 70s. So there was a time period in the past when China 
was America's worst nightmare and Pakistan was China's best 
friend?
    Mr. Tkacik. Yes.
    Mr. Rohrabacher. And we were friends of Pakistan?
    Mr. Tkacik. Well, you recall that Francis Gary Powers I 
believe took off in his U-2 from an airbase near Peshawar to go 
over the Soviet Union. And at that time, yes, we had a very 
close strategic relationship with Pakistan. However, in the 
1960s, our relationship with Pakistan was a bit strained 
because the two--primarily because of the first Indo-Pakistani 
War in 1965.
    And by 1969 when Henry Kissinger first and President Nixon 
first looked at the possibility of a Soviet nuclear strike on 
China the United States then and only then began to look at 
India as a Soviet ally and Pakistan as a conduit to China. And 
you'll recall that Henry Kissinger who made his famous secret 
trip to China in 1971----
    Mr. Rohrabacher. I see.
    Mr. Tkacik [continuing]. Exactly 40 years ago went through 
Pakistan.
    Mr. Rohrabacher. So the actual change in relationship with 
China which is something I--this is a new revelation to me and 
I'm glad that we have these hearings for that purpose. So 
you're suggesting that it was our relationship with Pakistan 
that helped open the door to a more positive relationship with 
China, and now that China is becoming more adversarial and 
appears to be less friendly to the United States and our 
interests, what does that mean about the Pakistani 
relationship?
    Mr. Tkacik. Well, I would simply reiterate that Pakistan 
and China are very close, natural allies. I do not think that 
it's going to be possible to have a strategic cooperative 
relationship with Pakistan unless we basically decide that we 
are going to have an equally strong and cooperative 
relationship with China.
    When you look at the South Asian subcontinent in order to 
have a strong, cooperative relationship with China and Pakistan 
you basically have to sacrifice India. Now it's up to you all 
to decide.
    Mr. Rohrabacher. Yes. Well, let me just note that I as the 
chair--the chair believes that we face the two major enemies 
that are faced with the United States. The two major threats 
are radical Islam which we know which is murdering our 
citizens, murdering other people as well, and China which is 
emerging as not a friendly power but instead actually a hostile 
power to the United States, and if that is the case, does that 
not mean that if Pakistan has this being tied at the hip to 
China should we not then suggest that it's time to become more 
acquainted with India than with Pakistan? Yes, sir.
    Mr. Nawaz. Mr. Chairman, I think it's a little more complex 
than that. It's not a linear equation. The United States and 
China certainly have a lot of co-dependence particularly on the 
economic side. And we must not ignore that in the relationship.
    Secondly, China, as I mentioned in my remarks, is equally 
scared of Islamic extremism in the region, in the neighborhood, 
as well as in its western territories in Xinjiang. And the last 
thing that the Chinese would be interested in is having a 
strong basis of Islamic extremism anywhere close to their 
borders.
    Mr. Rohrabacher. But Pakistan--But is that not what 
Pakistan is all about now? I mean this is--Let's be fair about 
it. The ISI and the military we thought were forces in Pakistan 
that were moderate forces actually have been allied with 
radical Islam all along, and it has actually been the more 
moderate forces in Pakistan represented by The Bhuttos and 
others that were not oriented toward radical Islam. But they 
were enemies of the military.
    Mr. Nawaz. Mr. Chairman, the Chinese have a strong interest 
in a stable, moderate Pakistan on their borders precisely for 
that reason that it would eliminate the possibility of radical 
extremist taking over that state.
    Mr. Rohrabacher. I'm sure they're willing to pay for it 
because I think we're done, willing to pay for it ourselves.
    Yes, madam. You have one.
    Mr. Pande. I would like to say that Pakistan has more of a 
mythical notion of the Chinese-Pakistani relationship than 
China does. That's the point I want to make that Pakistan seeks 
a lot more in China. China has never been as ``good'' an ally 
or as faithful an ally as the Pakistani narrative makes it out 
to be.
    China has provided economic aid, some military and nuclear 
aid. But from the 1990s China has also started stepping back a 
bit. China and India ties, especially the economic ties with 
India, have improved. And China has been reluctant to walk into 
any India-Pakistan disputes purely on the Pakistani side. So 
China has nuanced its relationship in the last two decades.
    Mr. Rohrabacher. Can I ask you a question before Mr. 
Rivera? But we'll go back and forth in this. But does China 
give a significant amount of nonmilitary aid to Pakistan and, 
if so, what is it?
    Mr. Pande. Very limited. It is infrastructure development 
like highways and ports, The Gwadar Port, Karakoram Highway. 
About $300 million for grant and loan assistance between 2004 
and 2009 but not much more. So it's very, very limited 
nonmilitary. It's mainly infrastructure and trade.
    Mr. Rohrabacher. But a limited amount.
    Mr. Pande. Very limited.
    Mr. Rohrabacher. That's compared to the United States.
    Mr. Pande. Minuscule compared to the United States.
    Mr. Rohrabacher. Oh my. Okay.
    Mr. Dhume. I'd just like to respectfully disagree with Mr. 
Nawaz on China and how much it's willing to live with radical 
Islam. Whereas I agree that it's not in Chinese interest to 
have its western regions such as in Xinjiang destabilized, 
China has been quite happy to live with Pakistan whose 
government has in fact aided and abetted Islamist groups for 
decades. And this has not been something that the Chinese have 
not used their influence to end this. And in fact at the United 
Nations they have been more than happy to use their influence 
in the other direction to protect some of these groups that the 
United States and India would like to see proscribed.
    So I think the Chinese at a conceptual level, yes, they 
don't want to have radical Islam in their territory. But 
they're willing to play a sophisticated game that tolerates 
these elements of Pakistan.
    Mr. Rohrabacher. They're willing to give a nuclear weapons 
capability to someone who is a radical nutcase.
    Mr. Rivera.
    Mr. Rivera. Thank you, Mr. Chairman. I have just a few 
questions. I know how important this issue is given recent 
events in the world and given the state of relations between 
Pakistan and India in particular.
    If we were to say that Pakistan's relationship with China 
on a scale of one to ten was a ten--whatever that means ten--
how would you rate on a scale of one to ten the importance of 
Pakistan's relationship with the United States from Pakistan's 
perspective? I'll start over here on a scale of one to ten.
    Mr. Pande. I'd like to differentiate a bit between the 
civilian elements and the military within Pakistan.
    Mr. Rivera. From the government's perspective, if you were 
sitting here as the prime minister, what would be--Your 
relationship with China is a ten. You're now Pakistan. How 
important is your relationship with the United States on a 
scale on one to ten?
    Mr. Pande. Between a five and seven.
    Mr. Rivera. A five and seven.
    Mr. Tkacik.
    Mr. Tkacik. I would say about a five.
    Mr. Rivera. About a five.
    Mr. Dhume.
    Mr. Dhume. I would say about an eight. They're both very 
important.
    Mr. Rivera. About an eight.
    Mr. Nawaz.
    Mr. Nawaz. I would say about eight and heading toward five.
    Mr. Rivera. Okay. So between five and eight. So then my 
question is if obviously the relationship with China could be 
as much as twice as important to them as the relationship with 
us what then given that fact that their relationship is twice 
as important with China than it is with us what then are the 
pressure points that we have at our disposal if our 
relationship is about half as important to them as China. Where 
are our pressure points? Is it foreign aid? Is it trade? Is it 
perhaps U.S. aid to India, however that might manifest itself? 
Is it military aid? Where are our pressure points given that 
reality vis-a-vis China?
    Mr. Nawaz.
    Mr. Nawaz. I think it's not just a question of pressure 
points. It's also a question of leverage.
    Mr. Rivera. Where is our leverage?
    Mr. Nawaz. The leverage is economic to a very large extent 
and----
    Mr. Rivera. Trade?
    Mr. Nawaz [continuing]. Increasing military to a large 
extent.
    Mr. Rivera. When you say economic, you mean our trade 
relations with Pakistan?
    Mr. Nawaz. If the U.S. opens up trade access for Pakistani 
goods, it means we have to give them much less aid. And they 
can make the money on their own and profit from it. That's 
number one.
    Number two, on the economic side, it's not just the U.S. 
assistance. The U.S. has tremendous leverage through the 
international financial institutions, so the IMF, the World 
Bank, the Asian Development Bank. It works both ways. We can 
shut off that spigot or we can----
    Mr. Rivera. So financial institutions and trade.
    Mr. Nawaz. Yes.
    Mr. Rivera. Mr. Dhume.
    Mr. Dhume. I'd say the U.S. has tremendous leverage and in 
essence if the U.S. were to turn its back on Pakistan I think 
not only would Pakistan's economy which is already hurting, not 
only Pakistan's economy----
    Mr. Rivera. Turn its back how? Withdrawal of what?
    Mr. Dhume. If it were to decide that it--with a cutoff 
date. If it were to cut off support for Pakistan in the 
international financial institutions such as the IMF and the 
World Bank. It were to publicly call Pakistan out on past 
actions of both nuclear and nonproliferation and support for 
terrorism.
    I think the U.S. has a tremendous ability to threaten 
Pakistan's economic well-being and also its legitimacy.
    Mr. Rivera. So cut off aid and international financial 
institutions.
    Mr. Dhume. And legitimacy in the international system.
    Mr. Rivera. I don't know how concerned they are about that. 
But certainly money I'm sure they're concerned about.
    Mr. Tkacik.
    Mr. Tkacik. Well, I think we're in a bit of a difficult 
situation because frankly we're extremely exposed in 
Afghanistan and my understanding is about 80-90 percent of our 
logistics supporting our troops in Afghanistan go through 
Pakistan. So if you were to put pressure on Pakistan, I can 
imagine what kind of pressure Pakistan could put on us.
    So if you want to avoid or if you want to have leverage on 
Pakistan you've got to remove the Pakistani leverage on us. And 
I worry then how we're going to do that. This is a very 
complex, strategic game that we have before us and you have 
to----
    Mr. Rivera. So as long as the troops are there, we have no 
leverage.
    Ms. Pande.
    Mr. Pande. It's economic, both nonmilitary aid. That means 
what U.S. provides and international institutions like IMF. 
It's military aid. It's also trade and it's leverage with the 
India-Pakistan relationship in Afghanistan.
    Mr. Rivera. Okay. My next question, what is the state of 
bilateral relations between Pakistan and Iran and its southern 
quadrant?
    Mr. Nawaz.
    Mr. Nawaz. This has always been a very interesting and 
problematic relationship.
    Mr. Rivera. What is the state today?
    Mr. Nawaz. It is problematic and still very interesting 
because of conflicting interests in the border region between 
Iran and Pakistan. There is an insurgency asking for an 
independent Greater Balochistan and it has found support inside 
Pakistan allowing a group called Jundallah from operating from 
Pakistani bases.
    Mr. Rivera. So it's not a close relationship.
    Mr. Nawaz. It's close in some areas but not close on 
others.
    Mr. Rivera. Okay. So problematic he said, would that be 
accurate? Would everyone agree with a problematic relationship 
between Iran and Pakistan?
    Mr. Dhume.
    Mr. Dhume. I'd say that traditionally it has not been. I 
mean it's been warm. But I'd say that one of the big problems 
has been that since the Iranian revolution you've seen the rise 
of an extreme kind of Sunni fundamentalism in Pakistan which 
specifically targets Pakistan's Shia minority and that has 
created sort of a bit of tensions between them.
    Mr. Rivera. Tensions. My light is on. Sorry, Mr. Chairman. 
Thank you so much for your indulgence.
    Mr. Rohrabacher. And Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thank you for being here.
    To me, Pakistan has proven itself, has proven itself, to be 
an untrustworthy ally of the United States. After $20 billion 
of aid over the last 10 years, I'm not sure we have a whole lot 
to show for it. Pakistan has still not gone after key targets 
like Al Qaeda. Pakistan was either unwilling or unable to hand 
over Osama bin Laden. That was in plain sight to everybody in 
that area.
    If Pakistan was truly on our side in the fight against 
terrorists, that it should have commended our work and taken 
out the Number One Terrorist in the world. Instead the 
Pakistanis arrested CIA informants that helped us get him. Some 
kind of friends they are.
    In June, Pakistan tipped off terrorists making IEDs not 
once but twice after we gave them information and told them 
where the terrorists were so they could go capture them. And 
all of a sudden the terrorists disappeared.
    The latest Pakistani show of friendship came over the 
weekend at the World Without Terrorism conference hosted by the 
world's leading terrorist state, Iran. And the Pakistanis told 
the Iranians that they wanted to be an ally and pledged their 
work toward working and expanding relations with Iran.
    It's time for us to take a look at the money we're giving 
away to Pakistan. Over the last 10 years, Pakistan has not 
helped us get any closer today in eliminating terrorists. It's 
possible that our aid to Pakistan is actually hurting more than 
it is doing good.
    And not all the problems can be solved by throwing money at 
people especially Pakistan. The billions of dollars that we 
give them, what do we have to show for it? I believe it's time 
we reevaluate all aid, military and foreign aid, to Pakistan. 
Pakistan has become the Benedict Arnold nation in its 
relationship with the United States.
    I have a couple of questions and if I mispronounce your 
name I apologize. My name is Ted Poe. I've been called Tadpole 
and the whole thing, a lot of things worst than that.
    But, Mr. Tkacik, I have a couple of questions about China, 
Pakistan, North Korea on the development of nuclear weapons. Do 
you see that train or line going to North Korean nuclear 
development coming from Pakistan? There have been accusations 
for years that that's where they got their start or help.
    Mr. Tkacik. Well, I think that relationship has been very, 
very clearly documented not just in the intelligence that the 
United States has collected but also in basically the public 
record.
    There is no question in my mind that China has been the 
facilitator of the exchange of nuclear weapons technology from 
Pakistan to North Korea in exchange for North Korean ballistic 
missile technology to Pakistan. I can say that people that have 
had direct knowledge of the intelligence have confirmed that to 
me.
    It's been in the newspapers. And again as I mentioned and 
I've documented in my presentation here when Mrs. Bhutto, when 
former Prime Minister Benazir Bhutto, made her comments to a 
journalist friend of hers she couched it in terms of--and I 
should find it here--she said, ``I have done more for my 
country than all of the members of the Pakistani Armed Forces. 
I was the one that went to North Korea and exchanged nuclear 
weapons technology for the ballistic missiles.''
    And then she----
    Mr. Poe. I'm sorry to cut you off. I only have a few 
minutes. But I just wanted to hear that from you once again to 
clarify the information.
    Military aid, foreign aid, two separate types of aid we 
give to the Pakistanis. There have been reports that some of 
the military aid we give to the Pakistanis to help fight the 
bad guys actually turns out to go into the hands of the 
military for other purposes, maybe even to reinforce the 
military along the border with India.
    Any one of you want to weigh in on that accusation against 
the Pakistani military? Mr. Tkacik.
    Mr. Tkacik. I mean I look back at right after 9/11. The 
biggest, most prominent terrorist attack was by Pakistanis 
against the Indian Parliament in New Delhi in December 2001. 
This could have started a nuclear war between these two 
countries.
    Now China was involved in this and China had made an 
arrangement with Pakistan to get Pakistani nuclear weapons. In 
the overall strategic context of this, why would China want 
Pakistan to have nuclear weapons in this kind of a situation?
    Well, we were the ones. The United States were the ones 
that immediately after 9/11 had to broker the peace between 
Pakistan and India after the New Delhi attacks. This was the 
Pakistani military I believe that was behind this. And one has 
to ask oneself what is the strategic game going on here.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Rohrabacher. If you have any other questions, you're 
welcome to go right ahead. The chairman took a few extra 
minutes.
    Mr. Poe. That's it for now.
    Mr. Rohrabacher. All right. Got it. Let me ask some things 
here. Are there any documented cases where India attacked 
Pakistan in these last five decades? I mean we know about 
Mumbai and we know that the terrorists actually had a 
connection with the military in Pakistan, and we know that in 
Kashmir there have been weapons and such shipped into Kashmir. 
Now, by the way, I personally believe that the Kashmirian 
people deserve to have a referendum and to determine their own 
destiny, and I think that we could deflate that situation if 
India would permit that.
    So I'm not siding. I'm not just forgetting anything wrong, 
but by and large I can't remember any time when the Indians 
were attacking the Pakistanis. Can you enlighten me to that?
    Mr. Nawaz. Mr. Chairman, strictly speaking and technically 
speaking, in 1971 the Indian army invaded what was then 
Pakistan and what was then East Pakistan in support of the 
independence movement of the Bangladeshis.
    Mr. Rohrabacher. Okay. But we know now that that wasn't an 
invasion because government is what the people of the country 
want.
    Mr. Nawaz. Right.
    Mr. Rohrabacher. And obviously the people there did not 
want to be under Pakistan.
    Mr. Nawaz. That's quite correct. But technically since it 
was still the state of Pakistan.
    Mr. Rohrabacher. Were there any other examples?
    Mr. Nawaz. Apart from that, there are no known examples.
    Mr. Rohrabacher. Okay. So this is pretty clear cut, who's 
committing violence against whom in that part of the world. I 
don't know why it's taken the United States--Well, I was in my 
Cold War mentality all that time. So it seems to me that it's 
very clear now that the Government of Pakistan and its intense 
belligerence toward India is willing to commit acts of violence 
and be part of--actually support acts of violence against 
India.
    What would we expect of any other country except to defend 
itself? Is there anything that India can do that would bring 
down this level of intense belligerence on the part of 
Pakistan?
    I don't find that same intensity of belligerence by Indians 
against Pakistan, but they are justifiably outraged when their 
people are killed.
    Mr. Dhume. Mr. Chairman, India is a status quo power in the 
region. India still has many problems. It's still a poor 
country. But it has a rapidly growing economy and it's a fairly 
stable democratic policy. And India does not seek an inch of 
Pakistani territory.
    I think India's view on this is essentially defensive. And 
if you go back and look at some of the most startling terrorist 
attacks over the past decade, including the one on Parliament 
and including The Mumbai attacks, India has shown restraint in 
this regard.
    I think what India could do and which Mr. Nawaz also 
alluded to to lower the temperature in the region is frankly 
use economic, people-to-people and using their soft power in 
India leads in publishing movies, music and so on which are 
vastly popular in Pakistan. And many Pakistani writers, 
musicians, actors and so on are vastly popular in India. So 
there is a positive side to their relationship between the two 
countries. And I think that India has had a fairly good record 
on this and could be encouraged to continue in that regard.
    Mr. Rohrabacher. Ms. Pande, you wanted to add.
    Mr. Pande. I want to add onto to what Mr. Dhume said that 
we need better economic ties and more trade. If Pakistan and 
India open or give each other Most Favored Nation status, 
especially from the Pakistani side, that would build a 
constituency in Pakistan which would no longer see India as an 
enemy but would see India as being trustworthy. This would 
build more trust between the two countries. And that would 
hopefully spread from the middle class to other sections of 
society especially the establishment and the government.
    Mr. Rohrabacher. Well--Yes, go right ahead.
    Mr. Nawaz. Mr. Chairman. If I could add, Mr. Chairman. I 
think the United States has a very key potential role to create 
an enabling environment for the current dialogue between India 
and Pakistan and also to reprise a role that it played when it 
created an institution that nobody talks about but which has 
been one of the abiding treaties between India and Pakistan, 
the Indus Water Treaty, that the U.S. helped underwrite and 
that the World Bank underwrote in the end. And that still 
exists to this day under; which they stopped fighting over the 
rivers that came through Indian territory into Pakistan. And 
that conversation continues. The trade talks are continuing. 
Talks in counterterrorism have begun. The foreign secretaries 
are meeting today and tomorrow the foreign ministers will meet.
    The U.S. can play a huge role in helping underwrite this 
level of confidence among each other. And echoing what Mr. 
Dhume said, India being the superior power, the economic and 
military power, in the region can show what my friend, Peter 
Jones from the University of Ottawa, calls ``strategic 
altruism.'' I think that would be one way of undercutting the 
extremism point of view inside Pakistan of India as an enemy.
    Mr. Rohrabacher. I hope that's more than what I would call 
unrealistic idealism. Benevolence I don't know where 
benevolence has really worked to change belligerence in the 
past. I know that when you help friends you do cement that 
friendship and that bond.
    But I don't know about--I don't know examples in history 
where acts of a benevolence to one's adversary and one who 
hates that person has actually been able to calm that hatred. 
And in retrospect I think we need to take a look again at 
what's been going on and some mistaken impressions that we have 
in the United States. The first mistaken impression was that 
the Pakistani army and the Pakistan Government were a bulwark 
against radical Islam.
    Is there any one of you that believes that now? I mean I 
can't see how anybody in their right mind could now accept 
that. And we've been fed that for two decades and we've 
accepted it. And obviously the Pakistani military has been part 
of the radical Islamic movement and a facilitator of violence 
by the radical Islamic movement. And we need to make sure that 
that is part of our decision making process and how we deal 
with that.
    I also would suggest that if we--during this time period 
would none of us here--you're the experts--have been able to 
come up with an example where India was engaged in a military 
action that it was initiating an act of aggression of Pakistan 
as compared to the multiple instances that you can see where 
the Paks have gone out and let their people go into Mumbai and 
slaughter people, et cetera.
    And, by the way, it wouldn't surprise me if we know now 
that The ISI was harboring Osama bin Laden all of these years. 
Would it surprise anybody to think that maybe The ISI knew that 
he was planning to attack the United States and slaughter 
thousands of our people? I don't think it would surprise 
anybody.
    Well, we have been acting like fools then, haven't we? 
We've been acting like fools. A fool is someone who does 
something to aid someone who is trying to do something that 
will harm you and harm that person. If they had been guilty of 
all of these acts of military aggression or terrorist 
aggression during that same time period the United States has 
been providing them military support, billions of dollars of 
military support.
    Now that's got to be stupid in anybody's book. And I would 
hope that it's about time, number one, to end that altogether 
and perhaps to start easing toward a relationship with India 
which seems to be more of a benevolent soul in all of this 
rather than a belligerent force.
    And I think it behooves the United States to be more inside 
with people like that rather than thinking we're going to buy 
them off and make them nicer by giving money to a bunch of 
gangsters.
    Mr. Carnahan, go right ahead.
    Mr. Carnahan. Thank you, Mr Chairman. And again my 
apologies for having to go back and forth between hearings. But 
I wanted to start with Mr. Nawaz and again thank you for being 
here.
    You wrote last month about Pakistani-U.S. relations and the 
need for the Pakistani Parliament and the military to work 
together, not separately and the need for the government to own 
the plans so that it can be shared with the people of Pakistan. 
Your statement really underscores the complexity of the 
internal challenges in Pakistan.
    I wanted to ask. What are the prospects for achieving 
security and diplomatic progress in Pakistan given these many 
challenges?
    Mr. Nawaz. Congressman, it's not going to be a one-shot 
deal. There's no silver bullet answer. This really demands a 
very consistent, longer-term approach which I believe has 
already been begun with the U.S. through the Kerry-Lugar-Berman 
initiative.
    I think a longer term consistent relationship is the way to 
influence and change particularly if we're going to stop 
looking at Pakistan through the security lens. And if we want 
to strengthen the civilian side so that all the things that the 
United States sees as positive in the relationship with India 
we can then see as positive in the relationship with Pakistan. 
I think that's really going to be key.
    The counterfactual as my colleagues on the panel have also 
alluded is really not very acceptable because you cannot 
contain such a vast population and particularly a country that 
has nuclear weapons and particularly a country that is home to 
many homegrown insurgencies and radical elements that are 
fighting each other as well as the state. So you cannot expect 
to innoculate the rest of the world from that if we were to cut 
ties and say, ``We are done. Thank you very much.''
    Mr. Carnahan. Which really gets to my next question. I'll 
start with you, Mr. Nawaz, but I want to ask the rest of the 
panelists. Because some have advocated increasing our 
disengagement with Pakistan, I wanted to ask your opinion about 
that, the effects that would have in Afghanistan.
    Let's start with you, Mr. Nawaz.
    Mr. Nawaz. Congressman, Mr. Tkacik had already alluded to 
that. There is not just for dependence for the next few years 
while we are engaged in kinetic operations in Afghanistan for 
both the air line of communication and the ground line of 
communication but in the longer run, too, for stability in the 
region.
    I think it's very critical that we not end this 
relationship abruptly which would also further strengthen the 
hands of those in Pakistan who believe that this is what the 
U.S. does all the time. And that's rhetoric that has been used 
against this relationship within the country. And it would give 
them strength.
    Mr. Carnahan. Mr. Dhume.
    Mr. Dhume. Thanks. I think that the single most important 
thing in Afghanistan, the stabilization of Afghanistan, is for 
Pakistani strategic elites to recognize that they cannot think 
of Afghanistan as a colony, that Afghanistan is an independent 
country and that though Pakistan would have legitimate interest 
and would have a stake in having a peaceful and friendly 
neighboring country, it cannot go back to post Pakistani policy 
in the mid 90s until 9/11 which was backing this brutal 
Islamist regime, The Taliban, in order to subjugate Afghanistan 
and turn it into a client state.
    My worry is that unless the U.S. is able to show, resolve 
and show, that it's in Afghanistan for the long haul the 
natural temptation in Pakistan would be to feel that history 
can be rolled back and Afghanistan can once again be turned 
into a kind of puppet like it was in the past.
    Mr. Carnahan. Mr. Tkacik.
    Mr. Tkacik. Well, I mean, as I said earlier, this is a very 
complicated situation and as long as we are exposed in the 
massive way that we are in Afghanistan we are vulnerable in our 
relationship with Pakistan. I have my own ideas in how to get 
out of it. But I'm afraid it's too complex to go through in 
just a 5-minute sound byte.
    Mr. Carnahan. Dr. Pande.
    Mr. Pande. A couple of points. One, the logistic 
relationship: U.S. is still dependent about 35 percent on 
Pakistan. Safe havens: A number of the terrorists have safe 
havens in the Pakistani northwest tribal area and disengagement 
or walking away would cause problems for American operations 
and American troops both in Afghanistan and outside. A 
destabilization of Afghanistan actually would also cause a 
destabilization in Pakistan and the broader regions who are 
strategically important to us.
    And then economic reasons which would destabilize Pakistan. 
Any reduction in the nonmilitary aid or trade with Pakistan 
would cause instibility.
    Mr. Carnahan. One additional question.
    Mr. Rohrabacher. Feel free to ask as many as you'd like.
    Mr. Carnahan. Thank you, Mr. Chairman.
    Leon Panetta told members of the Senate Armed Services 
Committee during his confirmation hearing last month, ``This is 
a difficult challenge. The relationship with Pakistan is at the 
same time one of the most critical and yet one of the most 
complicated and frustrating relationships that we have.''
    What do you feel needs to be the primary areas we need to 
focus on between these two countries to mend some of this anger 
and distrustfulness between them? Dr. Pande.
    Mr. Pande. The nonmilitary aid which the United States 
provides actually helps to build a modern middle class, a more 
civilian liberal elements. And those elements actually are in 
favor of the U.S.-Pakistan relationship as well as in favor of 
better ties with India and do not view the U.S.-India 
relationship as being antithetical to Pakistan. So I believe 
that nonmilitary aid which is targeted, which is visible, which 
helps build this middle class and civil society will actually 
benefit United States and benefit the region and build a 
different Pakistan as compared to today.
    Mr. Carnahan. And one of the other concerns that I think a 
lot of folks have heard here and in Washington is that where 
Pakistan is among the largest recipients of aid from the U.S., 
yet the view toward the--the positive view of the U.S. is among 
the lowest of any country that we're dealing with. Again as to 
that complicated nature of how we break through to the public. 
Could you comment on that?
    Mr. Pande. Actually building the middle class that I talk 
about or the civil society, those sections actually have a 
positive view of the United States. And it's that section which 
I believe the nonmilitary aid if it's focused and targeted 
would help change that perspective. But it's a long-term 
process.
    Mr. Dhume. I would say that we should not be terribly 
unrealistic about changing Pakistani mass public opinion in 
favor of the U.S. If you look back on the figures it was 
about--the U.S. had a favorability rating of about between 10 
and 12 percent in 2002 and even now it's between 10 and 12 
percent which is among the lowest in the world. So that's $20 
billion later The favorability rating is the same.
    So I think that if we sort of look at it in terms of 
getting the average man on the street to stop thinking in terms 
of the U.S. being this scary, crusading power out to grab 
Pakistan's nuclear weapons and the conspiracy theories that Mr. 
Nawaz alluded I think that may be based on the evidence we have 
so far. Pretty unrealistic.
    But what we can do and what we ought to do is try and 
strengthen the hands of Pakistan's democrats so that this 
military--I mean even if they hate the U.S. or even if they 
hate India why had it become a problem? It becomes a problem 
because then they train and equip and send people across to 
blow up cities and slaughter civilians.
    The problem is that we have to remove that capacity. It 
will only happen over time if democrats are allowed to run the 
country. And the army has its normal role which is a role of 
defending its borders and ceases to be a destabilizing force in 
the region.
    Mr. Carnahan. Any others want to comment on that?
    Mr. Nawaz. If I may.
    Mr. Carnahan. We'll go to Mr. Tkacik and we'll close with 
you.
    Mr. Nawaz. If I may, I want to refer to the Pew Global 
Attitude polls on Pakistan. There is consistently in all the 
polls a paradox, one, something like 59 or 60 percent 
Pakistanis that consider the U.S. an adversary. But there is 
also a much under reported section of the same poll that 
identifies six out of ten Pakistanis that want improved 
relations with the United States. And that's the group that Mr. 
Dhume is referring to. There's a 35-million middle class in 
Pakistan which is a potential ally because they want the same 
things that we want, a better life, improved prospects for 
themselves and their kids.
    The India-Pakistan polls have almost the same kind of 
range. Seventy percent of Pakistanis polled by a joint poll 
conducted by Indian and Pakistani newspapers said they want 
improved relations with India. Seventy percent of Indian--72 
percent of Pakistanis. Seventy percent of Indians said they 
want improved relations with Pakistan.
    So there is a reservoir that can be tapped, but it's not 
going to be done overnight. And I don't think it's a function 
of money alone. It's a function of consistency, honesty, 
respect.
    Over the last 10 years, the Government of Pakistan has been 
feeding its own people an anti-American point of view on the 
Drones, complaining about the Drones while they privately 
approve the U.S. Drone attacks. That needs to come up into the 
open. If the U.S. goes open with the Drone weapon system and 
acknowledges it and shares information about it, then that will 
not happen in Pakistan. The people will know why the Drones are 
operating and against whom.
    So that's just one illustration of how you build respect 
and honesty. Ten years the government has been feeding 
something to the people in Pakistan that has fed their anger 
against the U.S. Now we have to maybe take not 10 years but 5 
years at least to try and change that direction.
    Mr. Carnahan. Thank you.
    And Mr. Tkacik.
    Mr. Tkacik. I think I agree with my fellow panelists. I 
would just point out that my impression was that there was a 
rather strong blip in support of the United States during the 
floods when the United States aid to Pakistan was more than 
everybody else combined. It was surprising to me.
    I recall that China's aid was less than 10 percent of what 
the United States gave. But it's interesting to me that China 
focused its aid and its benevolence not on the people of 
Pakistan but on the military and on parts of the government.
    And over the last 50 years when you have a situation where 
the military and The ISI have some place else to turn to from 
the United States which is to say China you have very little 
leverage over them and how they behave. And I have to think 
that in considering any kind of grant strategy for Eurasia much 
less a strategy for South Asia you have to deal with the 
pernicious impact of China's involvement.
    Let me just add one thing that I meant to add earlier on. I 
take some exception to Mr. Nawaz's statement that the Chinese 
are very worried about Islamic fundamentalism in their far 
western territories. I would have to say that the Chinese have 
figured this out already. The Chinese have bought off the 
Pakistanis. They've bought off the Afghans. They have bought 
off the Iranians.
    This is not news, but it's something that's been going on 
for the last 20 years. The Chinese are not stupid in this 
regard.
    Virtually all the unrest that you see in Chinese Muslim 
areas, primarily in Xinjiang, are ad hoc demonstrations by 
locals. You never see an instance in China where Muslim 
separatists, Muslim activists, have been armed by the Iranians 
or armed by The Hezbollah or armed by Pakistani ISI. You never 
see it.
    You do see cases where American troops have been killed by 
weapons that are supplied by the Chinese. But you never see a 
situation in China where Chinese Muslim separatists are armed 
by what you would think would be the logical choice, Pakistan, 
Iran and fundamentalist Islam around the world.
    What I mean to say is that in Pakistan if you cannot offer 
the military an attractive alternative to Chinese support 
you're not going to have much leverage with them. And in this 
case I'm afraid that the military has their interests. They 
will pursue those interests without hesitation. And if they 
can't get support from the Americans on that they will get it 
from some place else, which is to say--where they've always 
gotten it from--the Chinese.
    Mr. Carnahan. Thank you all very much. You've given really 
broad perspectives to this conversation, this debate, that's 
obviously going to continue. But we really appreciate you being 
here and lending your time and your expertise today. Thank you.
    I yield back, Mr. Chairman.
    Mr. Rohrabacher. Thank you very much. I'll just have a few 
more questions and a few more pieces of information that we'll 
share with each other. I do appreciate all of you and I'm going 
to give each one of you 1 minute to summarize what you think is 
an important point for us to leave this hearing with, so you 
might be thinking about that as I go on with whatever I'm going 
to say here.
    Let me just note that I have learned. Thank you for coming 
today. I have learned from each of you information that has 
broadened my understanding of South Asia.
    The idea of the depth of China's involvement with Pakistan 
even before, meaning even back as early as the 60s, was 
something I was not fully aware of, and I would just have to 
say that what's fascinating, however, if we have a bad image in 
Pakistan and the Chinese don't, yet they give a minuscule 
amount of support compared to what we're providing in the tens 
of billions of dollars, maybe that might suggest that the 
strategy of winning over someone with--winning over a 
belligerent government by being benevolent to their people is 
not necessarily a strategy that works.
    I know that there's a lot of people who felt that's what we 
should do with China and that all we have to do is make China 
prosperous, and China will then become part of the family of 
nations and a nonthreatening part of the family. And, in fact, 
people have always heard me earlier say that that it was the 
theory of hug a Nazi and you'll make a liberal.
    Well, that didn't work with China, and clearly China has 
become ever more belligerent as it becomes ever more powerful, 
and it is using its influence again interestingly enough. China 
is not only Pakistan's ally. But am I inaccurate when I say 
they are Iran's ally?
    So what does that mean? The Chinese have allied themselves 
with the most virile and anti-Western elements in Islam, and 
maybe they see it as being their way of flanking us and 
destabilizing the United States' position in the world.
    The one thing for sure is that we cannot afford to be a 
dominant force in the world in the far-off reaches if what it 
means is that we must have our military in action in those 
parts of the world. Our own bank is going bankrupt.
    One thing that I've learned here is that if there is a 
change in Pakistan it means that we must have a change in 
Afghanistan as well. Having spent considerable time in 
Afghanistan and knowing the Afghan people the way I do, I would 
suggest that if we're waiting to change them or if we're 
waiting to change Pakistan, that's a strategy that won't work.
    What we've got to do is realize we've got to change our 
policy, not change their way of governing and their way of 
life, and in Pakistan or in Afghanistan at least we have 
attempted to force a tribal society and a village society to 
accept central power over their lives--the same thing the 
Russian were trying to do, only we have replaced the Russians 
now.
    We will not succeed as they will not succeed, and maybe it 
is time for us to pull out of Afghanistan immediately so that 
our people will quit losing their lives and losing their limbs, 
and that we will quit spending billions of dollars for a 
strategy that cannot work.
    Maybe that's the same way we should think about Pakistan. 
We've tried our best, and maybe it's time to play Alexander the 
Great here with the Gordian knot that he was supposed to untie. 
And how did he untie it? All the other leaders around the world 
had come there and been unable to untie the knot because they 
tried to work out the intricacies as you say how complicated it 
really is, and Alexander the Great took his sword and cut the 
knot in two and it fell apart. Maybe we have to be as decisive 
as that or we will be relegated to history.
    Our policy toward Asia is going to determine the position 
of the United States, and it seems to me from what I've learned 
today and what we've been talking about in terms of the anti-
Western reality in Pakistan's Government, military, and 
actions, is that it is time perhaps for us to have a policy 
that is based on embracing a democratic party, meaning India, 
rather than a belligerent, hostile, anti-democratic force which 
is what we see working in Pakistan today, meaning radical 
Islam.
    So that's just a thought. I wonder if there's anything 
more. I came out with a lot of knowledge. Thank you for 
testifying, and what we'll do is we'll--did we start with you 
at the beginning? We'll end up with you at the end. So why 
don't we start over here. Each will have a 1-minute summary of 
what you would like to leave, the most important idea you'd 
like to leave today.
    Mr. Nawaz. Thank you, Mr. Chairman, and again thank you for 
inviting me here today.
    I would only go back to reiterate that I share your 
concerns and can understand the anger not just in this House 
but in the American people at a time when we are facing serious 
economic difficulties at home, when assistance is not used the 
way it ought to be.
    But I should warn also that the solution is really not to 
withdraw from the scene. The U.S. has an international role. 
The role has to be one of creating an environment and a 
relationship with people, not with a group or an individual or 
single institution in a country that we need to be allied with 
for whatever reason.
    And our mistake in the region was that when we wanted an 
ally that could deliver what we needed over the short run which 
was invariably a military or an autocratic ruler in Pakistan. 
And I think that shouldn't color our relationship with the 
people of Pakistan or the people of the region.
    As I indicated in my comments to you, the people of the 
region whether they are in Afghanistan, Pakistan, or India want 
a better life. They want the same thing that I find when I 
travel in the heartland of the U.S. And we should try and look 
to see how we can serve their aspirations so that they can 
become partners, our partners, in the global stage rather than 
cutting them loose. Thank you.
    Mr. Rohrabacher. Thank you very much.
    Mr. Dhume. Thank you, Mr. Chairman, for this opportunity.
    To sum up I'd like to say that I think it's crystal clear 
that the policies of the past 10 years have been disappointing 
and the results have not been what we should have expected. In 
short, $20 billion has not got us what it should have.
    That said I'd say that what we face in Pakistan is really a 
case of two bad choices, one worst than the other. And at this 
stage I would say that simply walking away is a worse option. 
Instead what I would encourage is more targeted engagement and 
engagement that all takes place under the overarching goal of 
changing the nature of the Pakistani state which means getting 
rid of the influence or diminishing the influence of the army 
and The ISI on national life, focusing on that, and being 
willing to use military force such as Drone strikes to go off 
to targets in Pakistan where the Pakistani military appears 
unwilling to do so itself. Thank you.
    Mr. Rohrabacher. Thank you.
    Mr. Tkacik. I mean I would add a point that maybe nobody 
has mentioned before which is the key point of leverage in both 
Pakistan and I think China in a global strategy is attaching 
the legitimacy of the people who have power in those countries.
    The military in Pakistan uses nationalism rooted in the 
ancient, well, ancient, 60-year-old dispute over Kashmir to 
legitimate its authority in Pakistan. It does not use the 
consent of the governed as a root of its legitimacy.
    Likewise in China, decision makes root their legitimacy in 
nationalism. The Chinese Communist Party's legitimacy is rooted 
in making China a global super power again. Insofar as they can 
do that, they say we have the right to rule China. There's no 
question of the consent of the governed.
    I think in any broad national strategy that the United 
States is going to come up and here I agree with Mr. Nawaz who 
says, ``If you don't know what you want then it doesn't matter 
what strategy because whatever if you don't know where you're 
going any road will get you there.''
    But if you have a broad national strategy of saying, ``We 
want this kind of regime, Pakistan, China, to be weakened and 
to more responsive or indeed completely responsive to the needs 
of the people you have to attack their legitimacy.'' And this 
is not a matter of weapons. It's not a matter of aid. It's a 
matter of propaganda and I think it's something that we can 
use.
    Mr. Rohrabacher. All right.
    Mr. Pande. Thank you, Mr. Chairman. I'd like to state two 
points: One that the U.S.-India relationship will be the 
defining partnership of the 21st century and you mentioned 
that; and second that the U.S.-Pakistan is a complicated 
relationship. But moving forward maybe one needs to look at--
take a more realistic aspect of the relationship and try and 
see where there are some strategic or shared interests and work 
on those and also help build as I stated earlier the secular 
liberal middle class which actually is in favor of the U.S.-
Pakistan relationship. Thank you.
    Mr. Rohrabacher. I want to thank all the witnesses. Thank 
you, Mr. Carnahan. This hearing was meant to expand our 
knowledge base and our understanding and open up a dialogue 
that hopefully will filter out into the decision making offices 
throughout this city and maybe throughout the world. I think 
we've come up with some ideas that will benefit people.
    So, with that said, I thank you all. This hearing is 
adjourned. Off the record.
    [Whereupon, at 4 o'clock p.m., the subcommittee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
